     Department of Homeland Security

     ��������������������������


 United States Citizenship and Immigration Services’ 

     Employment͈Based Fifth Preference (EB͈5) 

              Regional Center Program 





OIG-14-19                               December 2013

                         OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                                Washington, DC 20528 I www.oig.dhs.gov

                                 December 12, 2013

MEMORANDUM FOR:              The Honorable Alejandro Mayorkas
                             Director
                             United States Citizenship and Immigration Services

FROM:


SUBJECT:                     United States Citizenship and Immigration Services'
                             Employment-Based Fifth Preference (EB-5) Regional Center
                             Program

Attached for your action is our final report, United States Citizenship and Immigration
Services' Employment-Based Fifth Preference {EB-5} Regional Center Program. We
incorporated the formal comments from the United States Citizenship and Immigration
Services in the final report.

The report contains four recommendations aimed at improving the EB-5 Regional Center
Program. Your office concurred with three of the recommendations. The OIG considers
recommendations 1, 2, and 3 open and unresolved. As prescribed by the Department of
Homeland Security Directive 077-01, Follow-Up and Resolutions for Office of Inspector
General Report Recommendations, within 90 days of the date of this memorandum, please
provide our office with a written response that includes your (1) agreement or
disagreement, (2) corrective action plan, and (3) target completion date for each
recommendation. Also, please include responsible parties and any other supporting
documentation necessary to inform us about the current status ofthe recommendation.

Based on information provided in your response to the draft report, we consider
recommendation 4 open and resolved. Once your office has fully implemented the
recommendations, please submit a formal closeout letter to us within 30 days so that we
may close the recommendation(s). The memorandum should be accompanied by evidence
of completion of agreed-upon corrective actions.

Please email a signed PDF copy of all responses and closeout requests to
OIGAuditsFollowup@oig.dhs.gov.
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security
                                �                                       

   Consistent with our responsibility under the Inspector General Act, we will provide copies of
   our report to appropriate congressional committees with oversight and appropriation
   responsibility over the Department of Homeland Security. We will post the report on our
   website for public dissemination.

   Please call me with any questions, or your staff may contact Anne L. Richards, Assistant
   Inspector General for Audits at (202) 254-4100.

   Attachment




www.oig.dhs.gov                                2                                       OIG-14-19 

                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security
                                          �
   Table�of�Contents��
   Executive Summary............................................................................................................. 1


   Background ........................................................................................................................ 2


   Results of Audit ................................................................................................................... 5


              The Laws and Regulations....................................................................................... 5

              USCIS’ Mission Limitations ...................................................................................... 6

              Foreign Investments and Job Creation ................................................................... 7

              Program Integrity .................................................................................................... 9

              Conclusion ............................................................................................................. 13 

              Recommendations ............................................................................................... 14 

              Management Comments and OIG Analysis ......................................................... 15 


   Appendixes ��
              Appendix A:          Objectives, Scope, and Methodology ............................................ 19 

              Appendix B:          Management Comments to the Draft Report ............................... 21 

              Appendix C:          Major Contributors to This Report ................................................ 34 

              Appendix D:          Report Distribution ........................................................................ 35 


   Abbreviations�
              CFR                   Code of Federal Regulations
              DHS                   Department of Homeland Security
              EB-5                  Employment-Based Fifth Preference
              GAO                   Government Accountability Office
              iCLAIMS               Interim Linked Application Information Management System
              INA                   Immigration and Nationality Act
              OIG                   Office of Inspector General
              U.S.                  United States
              USCIS                 U.S. Citizenship and Immigration Services




www.oig.dhs.gov�                                                                                                                 OIG-14-19
�
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security
                              �
   Executive�Summary
   In 1990, Congress created the United States Citizenship and Immigration Services’
   (USCIS) Immigrant Investor Program, also known as the Employment-Based Fifth
   Preference Program. The program’s intent was to stimulate the United States (U.S.)
   economy through job creation and capital investment by foreign investors. Three years
   later, the Departments of Commerce, Justice and State, the Judiciary, and Related
   Agencies Appropriations Act, 1993 created the regional center pilot program for pooling
   investor money in a defined industry and geographic area. Our audit objective was to
   determine whether the USCIS’ Employment-Based Fifth Preference regional center
   program is administered and managed effectively.

   Several conditions prevent USCIS from administering and managing the Employment-
   Based Fifth Preference regional center program effectively. Specifically—

       •	 The laws and regulations governing the program do not give USCIS the authority
          to deny or terminate a regional center’s participation in the Employment-Based
          Fifth Preference program based on fraud or national security concerns;
       •	 The program extends beyond current USCIS mission to secure America’s promise
          as a nation of immigrants; and
       •	 USCIS is unable to demonstrate the benefits of foreign investment into the U.S.
          economy.

   Additionally, USCIS has difficulty ensuring the integrity of the Employment-Based Fifth
   Preference regional center program. USCIS does not always ensure that regional centers
   meet all program eligibility requirements, and USCIS officials differently interpret and
   apply Code of Federal Regulations and policies. Furthermore, when external parties
   inquired about program activities USCIS did not always document their decisions and
   responses to these inquiries, making the Employment-Based Fifth Preference regional
   center program appear vulnerable to perceptions of internal and external influences.

   As a result, USCIS is limited in its ability to prevent fraud or national security threats that
   could harm the U.S.; and it cannot demonstrate that the program is improving the U.S.
   economy and creating jobs for U.S. citizens as intended by Congress.

   Your office concurred with three of the four recommendations made to assist USCIS’
   management and administration of the Employment-Based Fifth Preference regional
   center program. Our recommendations focused on strengthening regulations for
   oversight authority and consistent program application; better coordination with other
   Federal entities; comprehensive reviews of the program; and quality assurance
   procedures for program integrity.
   �


www.oig.dhs.gov                                   1	                                         OIG-14-19

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security
                                �
   Background��
   USCIS’ mission is to secure America’s promise as a nation of immigrants by providing
   accurate and useful information to its customers, granting immigration and citizenship
   benefits, promoting an awareness and understanding of citizenship, and ensuring the
   integrity of the immigration system. In 1990, Congress created the USCIS Immigrant
   Investor Program, also known as the Employment-Based Fifth Preference (EB-5)
   Program. The EB-5 Program was created under 203(b)(5) of the Immigration and
   Nationality Act (INA) in 1990, Public Law 101-649, Section 121(a), to stimulate the U.S.
   economy through job creation and capital investment by foreign investors.

   Through the EB-5 Program, foreign investors have the opportunity to obtain lawful,
   permanent residency in the U.S. for themselves, their spouses, and their minor
   unmarried children by making a certain level of capital investment and associated job
   creation or preservation. Three years later, the Departments of Commerce, Justice and
   State, the Judiciary, and Related Agencies Appropriations Act, 1993 (The Appropriations
   Act) created the concept of the regional center pilot program for pooling investor
   money in a defined industry and geographic area to promote economic growth.1 U.S.
   citizens or foreign nationals can operate regional centers, which can be any economic
   unit, public or private, engaged in the promotion of economic growth, improved
   regional productivity, job creation, or increased domestic capital investment. As of
   October 1, 2013, USCIS reports that there are 325 approved regional centers.

   EB-5�Program�Requirements�

   The EB-5 program requires that the foreign investor make a capital investment of either
   $500,000 or $1 million, depending on whether or not the investment is in a high-
   unemployment area. The foreign investors must invest the proper amount of capital in a
   business, called a new commercial enterprise, which will create or preserve at least
   10 full-time jobs, for qualifying U.S. workers, within 2 years of receiving conditional
   permanent residency. Two distinct EB-5 pathways exist for a foreign investor to gain
   lawful permanent residency; each pathway differs in job creation requirements:

       1) The Basic Immigrant Investor Program requires the new commercial enterprise to 

          create or preserve only direct jobs that provide employment opportunities for 

          qualifying U.S. workers by the commercial enterprise in which capital has been 

          directly invested. 




   1
    On August 3, 2012, Congress removed the word “pilot” from the regional center program’s name;
   however, the program expiration date is currently September 30, 2015.


www.oig.dhs.gov                                     2                                               OIG-14-19

                                    OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security
                                 �
       2) The Regional Center Program, formerly known as the Regional Center Pilot
          Program, allows the foreign investor to fulfill the job creation requirement through
          direct jobs or projections of jobs created indirectly. Jobs created indirectly are the
          job opportunities that are predicted to occur because of investments associated
          with the regional center.

   Application�Process�

   Individuals or entities must file a Form I-924 with USCIS to become an approved regional
   center or amend a previous approval.2 Once the application is approved, USCIS requires
   the regional center to report operational and financial data annually on Form I-924A.
   The regional center can only operate within a self-defined geographic area and within a
   self-designated industry. USCIS documents show that regional centers generally collect
   unregulated management and administrative fees between $25,000 and $50,000 from
   each foreign investor. These fees include travel and marketing expenses, legal fees, and
   sales commissions.

   Each foreign investor must file an individual Form I-526 petition to apply to the EB-5
   program. If the Form I-526 petition is approved, the investor obtains conditional
   permanent residency and has 2 years to fulfill the program requirements of job creation
   and capital investment. At the end of the 2-year period, the investor must file a Form I-
   829 petition to demonstrate that the investor has met all of the terms and conditions of
   the program. When approved, the foreign investor becomes a legal permanent resident
   of the U.S. and is no longer under the jurisdiction of the EB-5 program. Table 1 describes
   the forms required for participating in the EB-5 program.

       Table�1:��EB-5�Forms�
        Forms��                   User�                                     Purpose
                                                      To request designation of the entity to be a regional
       I-924�            An individual or entity
                                                      center under the Regional Center Program.
                                                      To demonstrate continued eligibility for the regional
       I-924A�         Approved regional center       center designation.
                                                      To petition for status as an immigrant to the U.S.
       I-526�              A foreign investor
                                                      under section INA 203(b)(5) as amended.
                   A conditional permanent resident
       I-829�      who obtained such status through To request U.S. residency.
                           entrepreneurship
       Source: DHS OIG generated based on USCIS documents.




   2
    Prior to 2010, narrative proposals were accepted as requests to be a regional center under the regional
   center program.


www.oig.dhs.gov                                        3                                                   OIG-14-19

                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
                                  �


       Figure 1 describes the general adjudications process for EB-5 petitions and
       applications.

                                      Figure�1:�EB-5�Adjudications�Process�




   Source: DHS OIG generated based on USCIS documents.

   The EB-5 program has been the focus of several reviews and media reports highlighting
   program concerns:

         •	 The Government Accountability Office (GAO) reported that there was a
            significant lack of information maintained by USCIS about the EB-5 program,
            including information on where immigrant investors established their business,
            the extent to which the businesses remained in the original location, the types of
            businesses established, the number of jobs created, or the number of immigrant
            investors who applied for U.S. citizenship.3
         •	 The USCIS Ombudsman reported the need to streamline USCIS policy and
            strengthen the adjudication process for stabilizing the program and making it
            more attractive to investors.4
         •	 The media have reported concerns with the EB-5 program’s operations.

   Appendix A contains the objective, scope, and methodology of our audit.
   �

   3
     Immigrant Investors: Small Number of Participants Attributed to Pending Regulations and Other Factors, 

   April 2005, GAO-05-256.

   4
     Employment Creation Immigrant Visa (EB-5) Program Recommendations, March 18, 2009.



www.oig.dhs.gov                                        4	                                             OIG-14-19

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security
                              �
   Results�of�Audit�
   Several conditions prevent USCIS from administering and managing the EB-5 regional
   center program effectively. Specifically:

       •	 The laws and regulations governing the program do not give USCIS the authority
          to deny or terminate a regional center’s participation in the EB-5 program based
          on fraud or national security concerns;
       •	 The program extends beyond current USCIS mission to secure America’s promise
          as a nation of immigrants; and
       •	 USCIS is unable to demonstrate the benefits of foreign investment into the U.S.
          economy.

   Additionally, USCIS has difficulty ensuring the integrity of the EB-5 regional center
   program. Specifically, USCIS does not always ensure that regional centers meet all
   program eligibility requirements, and USCIS officials interpret and apply the Code of
   Federal Regulations (CFR) and policies differently. USCIS did not always document
   decisions and responses to external parties who inquired about program activities
   causing the EB-5 regional center program to appear vulnerable to perceptions of
   internal and external influences.

   As a result, USCIS is limited in its ability to prevent fraud or national security threats that
   could harm the U.S., and it cannot demonstrate that the EB-5 program is improving the
   U.S. economy and creating jobs for U.S. citizens as intended by Congress.

           The�Laws�and�Regulations�

           The laws that govern the EB-5 regional center program do not specifically allow
           USCIS to deny or terminate regional centers based on fraud or national security
           concerns identified during the adjudication process. The Appropriations Act, as
           amended, only describes the requirements to approve a regional center that
           submits a general proposal for the promotion of economic growth. The INA gives
           USCIS the authority to deny immigrants seeking a benefit or visa who are a
           national security concern.




www.oig.dhs.gov                                   5	                                         OIG-14-19

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
                              �
           However, USCIS has interpreted that because regional centers are pooling funds
           from investors and not seeking an immigrant benefit or visa, these sections of
           the INA are not applicable. 5 USCIS has not developed regulations that apply to
           the regional centers in respect to denying participation in the program when
           regional center principals are connected with questionable activities that may
           harm national security.

           With stronger legal authority, USCIS would be in a better position to protect
           national security and U.S. citizens from harmful types of economic activities.

           USCIS’�Mission�Limitations�

           The EB-5 program extends beyond USCIS’ mission to provide immigration and
           citizenship services. When the EB-5 program was created, lawmakers
           acknowledged that USCIS did not have all of the expertise needed to implement
           the program and noted that USCIS should seek assistance from other agencies.
           Three years later, the Appropriations Act gave USCIS the oversight of the
           regional center concept, which further extended the EB-5 program from USCIS’
           mission. For instance, adjudications of regional centers involve different
           complexities and expertise that align to missions of other departments and
           agencies, such as the Securities and Exchange Commission and the Departments
           of Commerce and Labor. Those adjudications involve responsibilities such as
           reviewing investments, business and economic plans, job creation
           methodologies, financial statements, funding, and legal agreements.

           According to the USCIS Director, the component has coordinated with other
           government agencies to assist with EB-5 program activities in the past, but
           acknowledged that more collaboration would help.

           Table 2 presents a comparison of the purpose of the EB-5 program to the
           mission of four government departments or agencies. The underlined text shows
           language that is applicable to the purpose of the EB-5 program. Because
           agencies other than USCIS have missions that USCIS could leverage to its
           advantage for the EB-5 program, USCIS needs to improve coordination and rely
           on the expertise at these agencies during the adjudication process.

   5
    Senate bill S.744, section 4804 has provisions intended to prevent individuals with national security
   concerns from participating in the EB-5 regional center program, as part of a substantial overhaul of the
   EB-5 program. S.744 would give the Secretary of Homeland Security the option to deny or terminate
   participation in the regional center program based on national security concerns. The bill was proposed
   on April, 2013, and passed by the Senate on June 27, 2013.




www.oig.dhs.gov                                         6                                               OIG-14-19

                                OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
                            �
           Table�2:�Comparison�of�EB-5�Program�Purpose�and�
           Departmental�Mission�Statements�
                     Department�                         Mission�Statement�
                   and/or�Agency�
                                            To secure America’s promise as a nation of immigrants by
                   United States            providing accurate and useful information to our customers,
                   Citizenship and          granting immigration and citizenship benefits, promoting an
                   Immigration              awareness and understanding of citizenship, and ensuring the
                   Services                 integrity of our immigration system.
                                            To promote job creation, economic growth, sustainable
                   Department of            development, and improved standards of living for all Americans
                   Commerce                 by working in partnership with business, universities, communities
                                            and our nation’s workers.
                   Securities and           To protect investors, maintain fair, orderly, and efficient markets,
                   Exchange                 and facilitate capital formation.
                   Commission
                                          To measure labor market activity, working conditions, and price
                   Department of
                                          changes in the economy. Its mission is to collect, analyze, and
                   Labor, Bureau of
                                          disseminate essential economic information to support public and
                   Labor Statistics
                                          private decision-making.
           Source: DHS OIG created from information published on USCIS and U.S.
           government websites.

           In their application package, regional centers are supposed to provide USCIS with
           predictions of economic growth. To evaluate economic growth predictions,
           USCIS hired economists to participate in the adjudication process. However,
           according to the economists, they do not have access to data and systems
           needed to validate the support for these predictions.

           Foreign�Investments�and�Job�Creation�

           USCIS is unable to demonstrate the benefits of foreign investment into the U.S.
           economy. Although USCIS requires documentation that the foreign funds were
           invested in the investment pool by the foreign investor, the CFR does not
           provide USCIS the authority to verify that the foreign funds were invested in
           companies creating U.S. jobs. Additionally, the CFR allows foreign investors to
           take credit for jobs created by U.S. investors. As a result, USCIS has limited
           oversight of regional centers’ business structures and financial activities.

           USCIS cannot demonstrate that foreign funds were invested in companies
           creating U.S. jobs. Under the EB-5 Program, 8 CFR 204.6(j) requires a petition to
           verify that the foreign investor is investing lawfully obtained funds in a new




www.oig.dhs.gov                                      7                                                OIG-14-19

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
                                 �
              commercial enterprise to create U.S. jobs.6 Under the USCIS precedent decision,7
              Matter of Izummi, USCIS also allows the creation of jobs by other entities, but as
              shown elsewhere, USCIS is not given the authority by the CFR to oversee these
              other entities.8 Therefore, USCIS cannot verify that the foreign investments lead
              to the intended creation of jobs.

              For example, we identified 12 of 15 regional center files in which USCIS allowed
              the creation of new commercial enterprises that collected EB-5 capital to make
              loans to other job-creating entities. USCIS adjudicators confirmed that because
              the CFR does not give them the authority to oversee these additional job-
              creating entities, they are unable to inquire or obtain detail that would verify
              foreign funds are invested in the U.S. economy via a job-creating entity. �

              Additionally, 8 CFR 204.6(g) allows foreign investors to take credit for jobs
              created with U.S. funds, making it impossible for USCIS to determine whether
              the foreign funds actually created U.S. jobs. Consequently, the foreign investors
              are able to gain eligibility for permanent resident status without proof of U.S. job
              creation. In one case we reviewed, an EB-5 project received 82 percent of its
              funding from U.S. investors through a regional center. The regional center was
              able to claim 100 percent of the projected job growth from the project to apply
              toward its foreign investors even though the foreign investment was limited to
              18 percent of the total investment in the project. Every foreign investor was able
              to fulfill the job creation requirement even though the project was primarily
              funded with U.S. capital. When we questioned USCIS about this practice, the
              officials explained that the EB-5 project would not exist if not for the foreign
              investment.

              We also identified two cases in which foreign investments were loans for
              completed EB-5 projects. For example, in June 2010 a foreign national invested
              $500,000 to pay off an existing loan for the construction and operation of a hotel
              that had opened in December 2009. Total project costs for the hotel were about
              $28 million, in which foreign investments totaled $4.5 million. Four million of the
              foreign investments were used to pay off existing loans, and $500,000 was used

   6
    A new commercial enterprise is any public or private entity established for the purpose of promoting
   economic growth through the investment of foreign funds established after November 29, 1990.

   7
    Precedent decisions are administrative decisions of the Administrative Appeals Office, the Board of
   Immigration Appeals, and the Attorney General, which are selected and designated as precedent by the
   Secretary of the Department of Homeland Security (DHS), the Board of Immigration Appeals, and the
   Attorney General, respectively.

   8
       Matter of Izummi, 22 I&N Dec. 169 (Assoc. Comm’r 1998).


www.oig.dhs.gov                                        8                                              OIG-14-19

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
                               �
           to purchase existing equity. Although 84 percent of the funds were contributed
           by U.S. investors, the foreign investor was subsequently granted permanent U.S.
           residency based upon an investment in a project that had already been
           completed.
       �
           The flow of EB-5 foreign investments is a complex process. It starts with the
           foreign investor sending funds to the investment pool (i.e., the new commercial
           enterprise). The foreign investor may be required to send administrative fees to
           either the regional center or the new commercial enterprise for expenses related
           to managing the investment. The new commercial enterprise then transfers the
           funds to the job-creating entity for management of the project. At the job-
           creating entity, the foreign investments are combined with investments from
           other sources, such as U.S. domestic funds. The numbers of estimated jobs
           created from that job-creating entity are not allocated among all investors based
           upon investment percentage, but are only attributed to the foreign investor.
           Additionally, current regulations do not require USCIS to track and verify that the
           foreign investment was invested into the job-creating entity.

           Recently, USCIS reported that since 1990, more than $6.8 billion has been
           invested in the U.S. economy through the EB-5 program, and a minimum of
           49,000 jobs have been created. We attempted to validate these statistics and
           requested the supporting information. USCIS was not able to provide support for
           the statistics reported. USCIS officials said that they had to estimate these
           figures and assumed the minimum requirements of the program had been met.
           As a result, USCIS was only able to speculate about how foreign investments are
           affecting the U.S. economy and whether the program is creating U.S. jobs as
           intended.
   �
           Program�Integrity�

           USCIS has difficulty ensuring the integrity of the EB-5 regional center program.
           Specifically, USCIS does not always ensure that regional centers meet all
           eligibility requirements for the program. USCIS officials interpret the CFR and
           USCIS policies differently. USCIS does not apply the regulations effectively to the
           regional center program. Additionally, the EB-5 regional center program appears
           to be vulnerable to perceptions of internal and external influences when there is
           not adequate documentation that supports decisions made by USCIS.




www.oig.dhs.gov                                 9                                        OIG-14-19

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
                            �
           Regional�Center�Accountability�

           Although USCIS adopted 8 CFR 204.6(m) in 1994 to assist its efforts in
           implementing the Appropriations Act, as amended, it has not always held
           regional centers accountable to the CFR requirements. Specifically, 204.6(m)
           requires regional centers to submit business plans with verifiable detail on how
           jobs will be created, yet regional centers continue to provide general concepts
           with some applications. After 8 CFR 204.6(m) was created, Congress amended
           the Appropriations Act in 2002 to allow regional centers to submit a general
           proposal. In 2013, 20 years after the creation of the regional center concept,
           USCIS officials have indicated that there is obvious tension evident in the
           regulatory language requiring “verifiable detail” and the statutory language
           which allows for the proposal to be based on “general predictions.” Because of
           this language difference, it appears that USCIS may not always apply its CFR
           requirements to the regional centers.

           For example, the USCIS California Service Center asked regional center officials
           to provide additional information related to one proposed business plan. Center
           officials responded that they did not need to submit a detailed business plan
           according to the Appropriations Act. Subsequently, the USCIS California Service
           Center approved the regional center’s application without obtaining verifiable
           detail that complies with the CFR. As a result, there is no assurance that regional
           centers meet the qualifications to participate in the program.

           USCIS�Regulations�and�Policy��

           USCIS officials interpret the CFR and USCIS policies differently, which prevents
           adjudicators from evaluating regional center applications and related petitions
           effectively. For example, an adjudicator requested additional evidence from a
           regional center applicant. According to 8 CFR 103.2(b)(8), the regional center
           application should have been denied for not responding in the mandated
           12 weeks. However, the denial letter was refused by the USCIS legal department,
           stating that there is no language that provides the ability to go straight to denial.

           In another example, to generate a favorable decision, USCIS requested a regional
           center applicant to omit information from its application because the language
           was not in compliance with a USCIS precedent decision. By advising applicants to
           remove information because it may delay or prevent approval, USCIS may be
           circumventing measures in place to ensure applicant eligibility. An adjudicator
           must deny an application if the evidence establishes ineligibility.




www.oig.dhs.gov                                 10                                         OIG-14-19

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
                               �
           Another example is the designation of high-unemployment areas by state
           governments. The regulations provide for state governments to designate high-
           unemployment areas for determining whether the EB-5 regional center project
           qualifies for the lower foreign investment of $500,000. However, the regulations
           do not instruct the states on how to make the designation. Because of how the
           regulations are written, USCIS adjudicators said that they must accept what the
           state designates as a high-unemployment area without validation even when it
           appears as if these designations are areas of low unemployment. For example, a
           regional center provided USCIS a letter from its state agency designating that
           one EB-5 project being built in a prosperous area qualified as being in a high-
           unemployment area. The letter explained that employment data for the
           requested combination of areas did not qualify for the designation but provided
           an alternative combination of areas for the project to qualify. The area where
           the project was being built is included in both combinations. This places doubts
           on whether program requirements are met, and it allows the foreign investors to
           invest only $500,000 instead of $1 million to qualify for permanent residency.

           As a result of USCIS’ unclear regulations and policy, USCIS is unable to hold
           regional centers and foreign investors to a consistent standard, and adjudicators
           may approve applicants and petitioners that do not meet eligibility
           requirements.

           Internal�and�External�Influence�

           USCIS did not always document decision making and responses to external
           parties who inquired about EB-5 activities. Outside influence may require USCIS
           senior leadership to become involved in the EB-5 adjudication process, thereby
           creating the perception of special treatment and internal influence by senior
           managers. While the files we reviewed were not well organized and
           comprehensive, they appeared to contain sufficient evidence to support the final
           adjudication decision. However, USCIS employees provided supplemental emails
           that suggest internal and external parties may have influenced the adjudication
           of EB-5 regional center applications and petitions. Some parties may have
           compelling reasons for influencing decisions made regarding EB-5 participation.
           For example—

           •	 The estimated job creation and economic improvements to local economies
              are convincing and important reasons for lawmakers and citizens to have an
              interest in advocating the EB-5 program.
           •	 USCIS documents show that regional centers generally obtain between
              $25,000 and $50,000 in unregulated fees from foreign investors, and as such,



www.oig.dhs.gov                               11                                 	     OIG-14-19

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security
                                 �
                  we believe that may contribute to them losing sight of the integrity of the EB-
                  5 program in the interest of making money.

           USCIS did not have protocols to document all inquiries and decisions made
           during the adjudication process. During the course of the audit, we obtained
           records showing email communications from external parties who were
           contacting USCIS senior leaders with inquiries pertaining to specific EB-5
           adjudications. The emails requested private discussions about regional center
           applications or expressed dissatisfaction with the time USCIS was taking for
           adjudication decisions. Based solely on the correspondence, we were unable to
           determine whether USCIS honored the requests. These emails referenced 3 of
           the 15 regional centers in our case file review along with other regional centers
           not covered in the scope of our review. The case files we reviewed did not
           contain evidence of the external or internal inquiries, whether the inquiries were
           addressed, or if anyone from USCIS ever met with or responded to the external
           parties.

           One set of emails contained inquiries about unwarranted delays and denials in
           processing applications. The regional center was amending its application to
           increase its area of operations. This amendment was denied by the USCIS
           California Service Center. The emails also discuss I-526 petitions that had been
           held awaiting the outcome of the Administrative Appeals Office. The emails
           discuss scheduling a meeting with a senior official and others at USCIS to discuss
           the inquiries and the decision of the Administrative Appeals Office. The emails
           do not discuss the outcome of this issue.

           In another email, a Congressman attached a letter asking a USCIS senior official
           to withdraw a request for evidence that USCIS sent to a regional center. In the
           same letter, the Congressman thanked the senior USCIS official for discussing the
           request for evidence with him. In the draft letter, the senior official responded to
           the Congressman saying that some items in the request for evidence were
           appropriate and some were not, and promises to clarify some of the issues in
           forthcoming EB-5 policy guidance. The emails do not discuss the outcome of this
           issue.

           One set of documents showed a president of a regional center emailed a senior
           USCIS official threatening a Federal lawsuit because a previously approved
           regional center project was in the process of being terminated by USCIS. The
           president of the regional center then asked to speak to the senior USCIS official
           personally. The emails do not discuss the outcome of this issue.




www.oig.dhs.gov                                   12                                        OIG-14-19

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
                              �
           In another example, there is indication of USCIS senior leadership with no direct
           involvement overturning an adjudicator’s decision to deny a foreign investor’s
           petition associated with a regional center. Senior management stated that the
           adjudicator did not give proper consideration to previous decisions made on
           other investor petitions associated with the same regional center. Consequently,
           the petition was approved even though the adjudicator had concerns that the
           proposed project would not meet the requirements of the EB-5 regional center
           program. USCIS senior managers reported that they were not making an
           adjudicative decision legally; however, they noted that functionally, the
           adjudicator must make decisions based on senior management’s guidance.

           Other examples of regional center advocates that may attempt to influence the
           adjudication process to benefit their own interest included a newspaper article,
           which reported that a lawmaker pushed for an adjudicative approval to be made
           within 15 days, while the regional center was approaching bankruptcy. We
           provided that information to our Office of Investigations for further review.

           As a result, USCIS decisions regarding the EB-5 regional center program may be
           questioned due to the perception of internal and external influences. USCIS
           needs to establish protocols to ensure all correspondence and discussions
           between external interested parties and USCIS leadership are documented and
           shared for transparency and accountability.

           Conclusion�

           Currently, USCIS cannot administer and manage the EB-5 regional center
           program effectively. The legislation establishing the regional center program did
           not give USCIS the necessary authority to prevent fraud and national security
           threats that could harm the U.S., and it assigned responsibility to USCIS for a
           program with mission areas outside USCIS’ immigration mission. Also,
           regulations were not always enforced, and USCIS did not always enforce its own
           regulations and procedures established to assist with managing the regional
           center program. To improve upon the administration and management of the
           program, USCIS needs to revise the regulations governing the EB-5 regional
           center program. USCIS also needs to execute memoranda of understanding with
           other agencies.




www.oig.dhs.gov                               13                                       OIG-14-19

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security
                                �
           Until improvements are made, USCIS is unable to prevent fraud and national
           security threats, and it cannot report the results of the program accurately or
           ensure the EB-5 program is benefiting the U.S. economy and creating jobs for
           U.S. citizens as intended by Congress. �

           Recommendations��

           We recommend that the Director of the U.S. Citizenship and Immigration
           Services:

           Recommendation�#1:�
           �
           Update and clarify the Federal regulations to —

                  •	 provide the U.S. Citizenship and Immigration Services with the authority
                     to deny or terminate EB-5 regional center participants at any phase of the
                     process when identifying known connections to national security and/or
                     fraud risks without compromising any ongoing or potential investigation;
                  •	 make explicit that fraud and national security concerns can constitute
                     cause for revocation of regional center status under 8 CFR § 205.2;
                  •	 give the U.S. Citizenship and Immigration Services the authority to verify
                     that the foreign funds were invested in companies creating U.S. jobs; and
                  •	 ensure requirements for the EB-5 regional center program are applied
                     consistently to all participants.

           Recommendation�#2:�

           Develop memoranda of understanding with the Departments of Commerce and
           Labor and the Securities and Exchange Commission to provide expertise and
           involvement in the adjudication of applications and petitions for the EB-5
           regional center program.

           Recommendation�#3:�

           Conduct comprehensive reviews to determine how EB-5 funds have actually
           stimulated growth in the U.S. economy in accordance with the intent of the
           program. If necessary, employ other specialists or work with other Federal
           agencies to assist and confirm the results.
           ��




www.oig.dhs.gov                                  14                                	      OIG-14-19

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
                          �
           Recommendation�#4:�

           Establish quality assurance steps to promote program integrity and ensure that
           regional centers comply with the Code of Federal Regulations requirements.

           Management�Comments�and�OIG�Analysis�

           USCIS agreed with three of the four recommendations. USCIS acknowledged that
           additional statutory authorities would strengthen the program. USCIS also
           acknowledged concerns with the consistency in EB-5 adjudications, the lack of
           clarity regarding program rules and serious fraud and national security issues
           within the program. In USCIS’ management response, the Component indicated
           that it recently completed a transformation of how they administer the EB-5
           Program. Our audit focus was limited to regional center applications as of
           November 29, 2012, which was before details of the transformation were
           announced. We will evaluate management’s reported changes as part of the
           audit recommendation follow-up process.

           USCIS noted that they previously had no meaningful economic expertise to
           conduct independent and thorough reviews of economic models, but had hired
           economists and corporate attorneys to support the EB-5 program. Our report
           recognizes that USCIS hired economists to participate in the adjudication
           process. At the beginning of our fieldwork, USCIS provided an organizational
           chart that showed the EB-5 program had seven economists. During our audit, we
           validated that two additional economists were hired. We did not audit program
           changes completed after our audit fieldwork. During fieldwork, five USCIS
           economists expressed concern that their expertise was not being used in the
           adjudication process because they did not perform any substantive analysis of
           economic plans or predictions. Instead they prepared checklist summaries of
           answers to a series of canned questions.

           USCIS’ response indicated that it reviewed each of the 22 regional center cases
           mentioned in our report and believed that all were adjudicated properly. Our
           conclusions are based on our analysis of documentary and physical evidence
           supported by corroborating testimonial evidence that showed limitations of the
           legislation for denying applications and consistency in EB-5 adjudications, which
           USCIS has also acknowledged. We did not make recommendations specific to the
           regional center cases identified. Our report does not make conclusions on
           whether cases had been decided properly or whether we concur with the
           statute, regulations, or policy.




www.oig.dhs.gov                               15                                       OIG-14-19

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
                              �
           In its response, USCIS stated that the report suggests Component officials
           improperly urged an applicant to omit information from an application in
           contravention of the regulations and is incorrect. We provided the facts based
           on our review of documentation which showed that USCIS specifically requested
           removal of language to ensure that the regional center would meet eligibility
           requirements.

           USCIS responded that they are not in a position to quantify the impact of the EB-
           5 Program on the U.S. economy. They also believe they are not charged with
           conducting a broader assessment of the program’s impact, something which has
           been the subject of both congressional hearings and private studies over the
           years. We disagree with USCIS’ position that it should not attempt to monitor or
           measure the performance of the EB-5 program. One of USCIS’ strategic
           objectives is to ensure the integrity, effectiveness, and responsiveness of its
           programs. The USCIS Strategic Plan provides integrated planning context for
           other USCIS initiatives, such as the business transformation plan, human capital
           strategy, management improvement plans, and the development of new
           immigration programs.

           USCIS defended its policy of deferring to prior agency decisions involving the
           same investment project, and believed our criticism was misplaced. USCIS
           indicated that an important element of consistency is that the agency must not
           upend settled and responsible business expectations by issuing contradictory
           decisions relating to the same investment projects. It disserves the public,
           undermines program integrity, and is fundamentally unfair to USCIS to approve a
           project, have developers and investors act in reliance on the approval, and then
           subsequently reverse course by determining that the agency’s initial approval
           was in error.

           USCIS provided technical comments to the draft report. When appropriate, we
           incorporated those changes into the report. A summary and analysis of the
           Component’s response to each recommendation follows.

           USCIS’�Response�to�Recommendation�#1: USCIS concurred with the
           recommendation. USCIS will update regulations to provide greater clarity
           regarding the requirements for establishing eligibility under the program. In
           particular, revised regulations will more clearly delineate the evidentiary
           requirements applicable to stand-alone EB-5 petitions versus regional center-
           based applications and petitions. A revised rule will be drafted for interagency
           clearance within 9 months of the report.




www.oig.dhs.gov                                16                                        OIG-14-19

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
                              �
           OIG�Analysis: Although USCIS concurred with the recommendation, the planned
           corrective action does not fully address the recommendation. This
           recommendation will remain open and unresolved until USCIS provides specific
           corrective actions and milestones to address the recommendation in its entirety.
           We need to review and analyze the corrective actions plans and evidence of
           their implementation. We need USCIS to provide actions taken to proactively
           address fraud or national security concerns by participants; verify funding and
           job-creation results; and ensure consistent application of the program.

           USCIS’�Response�to�Recommendation�#2: USCIS concurred with the
           recommendation. Within 6 months of the report, USCIS will develop and
           implement an interagency collaboration plan outlining liaison and collaboration
           roles and responsibilities among key Federal partners. This will include
           collaboration with the Department of Commerce and the Securities and
           Exchange Commission.

           OIG�Analysis: USCIS’ corrective action plan should resolve this recommendation.
           However, more details of the memoranda of understanding are necessary. This
           recommendation will remain open and unresolved until we have more
           information on the memoranda of understanding and have reviewed
           documentation of the interagency collaboration plan.
           �
           USCIS’�Response�to�Recommendation�#3: USCIS did not concur with the
           recommendation. USCIS stated that its mandate is to adjudicate EB-5 cases
           according to the eligibility criteria, including the statutory job creation
           requirements. USCIS responded that the Component is not charged with
           conducting a broader assessment of the program’s impact. While the
           Component agreed that an assessment may be beneficial, it did not believe
           USCIS, as the administering benefits agency, is best positioned to conduct a
           study.
           �
           OIG�Analysis: This recommendation will remain open and unresolved until
           USCIS provides an action plan and evidence of comprehensive reviews scheduled
           to validate how EB-5 funds have actually stimulated growth in the U.S. economy.
           Because program results and integrity assurance may be compromised and we
           identified concerns within the program, our recommendation included the
           option for USCIS to employ specialists or other Federal agencies to confirm the
           results of the EB-5 Program. We realize USCIS is facing challenges to ensure the
           program is meeting its goals and needs assistance and an assessment by internal
           groups or external specialists.
           �



www.oig.dhs.gov                               17                                      OIG-14-19

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
                             �
           USCIS’�Response�to�Recommendation�#4: USCIS concurred with the
           recommendation. Within 6 months, USCIS will establish quality assurance steps
           to promote program integrity and ensure regulatory compliance.
           �
           OIG�Analysis: USCIS’ corrective action plan should resolve this recommendation.
           This recommendation is resolved, but will remain open until we have reviewed
           documentation of the implemented quality assurance steps.




   �                            �




www.oig.dhs.gov                               18                                     OIG-14-19

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
                             �
   Appendix�A�
   Objectives,�Scope,�and�Methodology�
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   This report provides the results of our work to determine whether USCIS administered
   and managed the EB-5 Regional Center Program (regional center program) effectively.
   We reviewed the INA; the Departments of Commerce, Justice and State, the Judiciary,
   and Related Agencies Appropriations Act, 1993; and other legislation to renew the pilot
   program. We also reviewed USCIS regulations, management policies, procedures, and
   other memoranda related to the EB-5 program and Fraud Detection and Nationality
   Security.

   We interviewed USCIS management and staff responsible for the administration of the
   EB-5 program at both USCIS Headquarters and the California Service Center. Our
   interviews included representatives from the Branches of Service Center Operations;
   Fraud Detection and National Security; Policy and Strategy; and the Office of Chief
   Counsel.

   We identified 336 I-924 regional centers with applications or amendments submitted
   during fiscal years 2010, 2011, and 2012. Our selection of regional center application
   files to review was based on the most foreign investor petitions filed as reported in the
   Interim Linked Application Information Management System (iCLAIMS) as of November
   29, 2012. USCIS began using iCLAIMS in fiscal year 2010 as a database to store
   information related to EB-5 Regional Centers. The iCLAIMS database is updated
   manually when regional center applications, amendments, or annual updates are
   received on forms I-924 or I-924A by the California Service Center. The immigrant
   investor applications and petitions for permanent residency, forms I-526 and I-829, are
   maintained in other USCIS systems and transferred to iCLAIMS. We did not verify the
   reliability of the iCLAIMS system and do not draw any conclusions from its data. We
   used the National File Transfer System to identify the location of immigrant investor
   files related to the regional centers.

   We visited the California Service Center and reviewed 15 Regional Center application
   files and 6 immigrant files, either form I-526 or I-829, associated with the regional
   centers. Our selection was based on the location of the files and the timeframes needed



www.oig.dhs.gov                               19                                        OIG-14-19

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
                            �
   for review. We evaluated internal controls to the extent necessary to address the audit
   objective.

   We conducted this performance audit between September 2012 and June 2013
   pursuant to the Inspector General Act of 1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objective. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objective.




www.oig.dhs.gov                               20                                      OIG-14-19

                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


   Appendix�B
   Management�Comments�to�the�Draft�Report��
                                                                                          U.S. DeJlartment of Homeland Security
                                                                                          L.S. Citi:r.ensh..ip and Immigralion Services
                                                                                         Office of the Din>ctnr (MS 2000)
                                                                                          Wasllmgton, DC 20529-20<XJ

                                                                                         U.S. Citizenship
                                                                                         and Immigration
                                                                                         Services




                                                                    J::
               NOV      4 2013
                  Memorandum
                  TO:        Charles K. Edwards
                             Deputy Inspector G eneraY : ! J

               FROM:         Alejandro N. Mayorkas
                             Director, U.S. Citizcnshi an Immigrati n Services

               SUBJECT: Official Comments to the Draft Report Recommendations on U. S. Citizenship and
                             Immigration Services ' Employment-Based Fifth Preference (EB-5) Regional Center
                             Program - For Official Use Only (010- 12- 166)


              U.S. Citizenship and Immigration Services (USCIS) thanks the Office of the Inspector General
              (OIG) for the opportunity to review and comment on its draft report on the EB-5 program.

              The draft report cites con~.;ems regarding USCIS 's administration of the program, and other
              concerns best directed at Congress given its sole authority over the program 's statutory
              framework_ \Vhether the EB-5 statutes vest CSCIS with sufficient authority to ensure the
              program's integrity is an important queslilln, and one which we have worked closely with
              Congress in recent years to address. We agree with the 010 that additional statutory authorities
              would strengthen the program .

              The EB-5 caseload is, by far, the most complex that USCIS oversees, and involves decisions on
              issues- such as the evaluation of business plans and econometric employment modeling - more
              typically associated with other U .S. government agencies than with USCIS. We appreciate that
              the OTG shares our concerns regarding consistency in EB-5 adjudications, the lack of clarity
              regarding program rules, and serious fraud and national security issues in the program. It is
              precisely these concerns that have driven  users  over the past several years tu undertake a
              complete transformation of how we administer the EB-5 program.

              This work is progressing rapidly; indeed, JUSt as the OIG was wrapping up its work on this audit
              in June 20 13, USCIS was implementing several fundamental, long-planned steps to improve the
              EB-5 process. We have strong confidence that our overhaul of the program, already well
              underway, will translate to improved consistency, integrity, timeliness, and adherence to law_
              We arc, in other words, already in the pro~,;ess of addressing the issues raised in the OIG's audit
              that are w ithin the agency 's power to resolve.




www.oig.dhs.gov                                                21                                                                         OIG-14-19

                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security



              Oil!cia] Comments to the Drafi Report Recommendations on U.S. Cilizenship and Jmmzgralwn
              Services ' Employment-Based F1.fth Preference (EB-5) Regional Center Program- For Otlicial
              Cse Only (OIG-12-166)
              Page 2

              In particular, we have taken the following cm1crete steps to improve ow· administration of this
              progrmn:

                  •   lJSCJS announced its plans to reali!!n the FR-5 p•-o~~:•-am into a new office in
                      Decem her of 2012, to he stafted \~ith the expertise needed to efth.-tively mana~~:e the
                      progn1m in-houst·. In .\'lay 2013, LISCIS stood up tht' m·w progmm otlk.t·- tht'
                      Immignmt Innstor Program Office- in Headquarters. Previously, and essentially
                      through the end of the OIG's audit work. the EB-5 program was based at the CSCIS
                      Califomia Service Ccntcr, in the same facility as more traditional immigration casework
                      involving, for ex<mlple, family-based immigration petitions, and handled by generalists
                      who did not necessarily have the needed national security, economic, business, and legal
                      expertise. The needs of the EB-5 program arc unique. from an eligibility perspective as
                      well as a security perspective, and the program warrants dedicated inrra~trudure and
                      leadership. 'l11e new program ollice opened in May 2013 just before the OlG audit
                      work was completed in June 2013.

                      The new program office is led by a sit1gularly-focused SF.S-Ievel Chief atld consists of
                      prolessional economists with prior lederal and commercial experience, COflJOrate and
                      immigration attorneys, and experienced adjudicators. For the firsttimc in the agency's
                      history, the office is also staffed full time by :fi·aud and national security specialists :fi·om
                      the headquarters staff of the Fraud Detection and National Security (FDNS) directorate.
                      By locating the otllce in \'>.i ashington, DC, we have ensured that FDNS will be better
                      situated to coordinate directly with critical enforcement and intelligence partners at other
                      agcncics in the adjudication of EB-5 applications.

                      Within the nell:t six months, all ED-5 work will transition away from the Califomia
                      Service Center structure reviewed by the OIG and to the new structure at Headquarters.

                  •   On May 30, 2013, USC IS issued a comprehensi\'e EB-5 polic~' memorandum thr the
                      first. tirm· in the progmm's history. Previously, there were several separate policy
                      documents that applied to EB-5 adjudications and these doclmlents failed to address a
                      wide range of critical issues that typically arise in EB-5 cases, leaving adjudicators
                      without rom1al guidance on an array or complex questim1s. 'lltis was una..:ceptahle and,
                      predid.ably, it undennined ..:onsisl.ency, timeliness or adjudications, and adllerence to law.
                      The comprehensive policy memorandum was subject to several rmmds of public
                      comment before it \Vas finalized, and it now gives agency officials as well as the public
                      the prediclahiliLy and gLtidam;e they need.

                  •   LISCIS has fortified the program with adYanccd expertise. EU-5 cases involve
                      evaluation of business plans, econometric job creation models, and international financial
                      nows. For too long, users failed its adjudicators by not Sllpporting them with the
                      expertise needed to contend properly with these issues. 'l11at h~s now changed. In 2011,
                      users began hiring full time federal economists and transactional attomeys to work the




www.oig.dhs.gov                                                 22                                                        OIG-14-19

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security



              Oil!cia] Comments to the Drafi Report Recommendations on U.S. Cilizenship and Jmmzgralwn
              Services ' Employment-Based F1.fth Preference (EB-5) Regional Center Program- For Otlicial
              Cse Only (OIG-12-166)
              Page 3

                      F.R-5 caseload. Tn the new program office, we \vill for the first time have economists
                      who actually serve as adjudicators (as opposed to simply consulting with adjudicators).

                  •   lJSCJS. in close consultation with other· enforcement and intelli::ence a::encies. has
                      bolstered fraud and national secmity safeguards in the pl'Ogram. Historically,
                      lJSCTS treated ER-5 like its other immigration programs when it came to fraud and
                      national security. Tite consequence was a security infrastructure that was not properly
                      tailored tor the unique needs of this program. In recent years. US CIS has implemented
                      i.mpottant and substantial EB-5 integtity enhancements. For the fn·st time, the agency
                      now conduo.:t~ secutity o.:hecks on regional center businesses :md certain exe<.:utives
                      (instead of only potential investors). collaborates closely with partner agencies on
                      program-level issues. conducts enhanced security checks leveraging a range of holdings
                      rrom across Lhe l J.S. govemmenl lellllinates regional centers where rrand is detected, and
                      refers wbslantialmmtbers or EU-5 o.:a~es lo OLLr interagency enlor~ement partners. Also
                      tor the tlrst time, beginning in 2010. the agency began requiring use of a standard tonn
                      by all regional center applicants, and in 2011 began requiring all regional centers to file
                      an annual disclosme npdate to USCTS detailing regional center activities on a contitming
                      basis. All or these are new developments. We are rnlly leveraging the range or statutory
                      authorities we have at our disposal. TI1c progress on the fraud and security front has been
                      substantial. The program is, unquestionably, more secure now than it has ever been.

              As we have before, we invite the OIG to review our new operations. We believe our new model
              addresses the deficiencies in the legacy program that the OIG reviewed, and would welcome an
              audit ofthc new structure. Unfmtunatcly, because of the ongoing changes, the present audit docs
              not ao.:o.:uratdy describe the current stale or the program.

              W c remain disappointed that the OIG did not interact more tl!lly with the senior career leaders
              who manage the ER-5 program and are responsible ror its integrity. Over the course or its ten
              month audit period, the OIU interviewed the Chief of Ute EU-5 Program lor jttst one honr, and
              only upon our express request that it do so after the OIG had already conveyed to us its initial
              audit findings. TI1e OIG interviewed the Associate Director for Fraud Detection and ~ational
              Secnrity jusl once, and only at the heginnittg or the audit process. We do not believe the andit or
              such a ~omplex program should o.:ondude on these knns.

              We respond to the draft repott' s findings and recommendations bdow. While we believe the
              draft rep01t ha~ a number of ittaccuracies and mischaractetizations as to how the program
              operates, we have focused our response on the high-level points that we believe are most critical
              from the perspectives of progran1 integrity, efficiency, and effectiveness.


              Th<' Laws and Rcgulrltions
              \Ve agree in significant part with the OTG's con cent that the "laws and regulations goveming the
              program do noL give LSCIS the authority to deny or temtinate a regional cenler's participaLimt itt
              the EB-5 program based on fraud or national security conccms," which is why last year, CSCIS




www.oig.dhs.gov                                              23                                                     OIG-14-19

                                                OFFICE OF INSPECTOR GENERAL
                                                      Department of Homeland Security



              Oil!cia] Comments to the Drafi Report Recommendations on U.S. Cilizenship and Jmmzgralwn
              Services' Employment-Based F1_fth Preference (EB-5) Regional Center Program- For Otlicial
              Cse Only (OIG-12-166)
              Page 4

                  offered e:>.'tensive legislative proposals to Congress to close these gaps, and to equip CSCIS with
                  important authorities to enhance ED-5 program integrity. CSCIS already ha~ authority to deny
                  or terminate a regional center based on fraud or misrepresentation, 1 but the statutory framework
                  leaves other significant gaps in users authorities. especially with regard to national security.

              In anticipation of the regional center program's reauthorization, in June of2012 USCIS proposed
              to the Chairman and Ranking Member of the Senate Judiciary Committee specific statutory
              language that would, for example: ( 1) grant USCTS authority to deny or tenninate F.R-5 cm;es on
              a discretionary ha.~is: (2) require regional centers to certily their compliance with lhe lJ.S.
              securities laws; (3) penuit USClS to run security checks on a broader range of regional center
              patiicipants thatl is eunently authorized tmdcr existing statutes; ( 4) pcnnit USC IS to exclude
              from regional center participation individuals with prior record~ of crime or· fraud; and,
              (5) broaden lJSCIS authorities to condud oversight over job-creating bLL~inesses associated with
              regional centers. 2

              The draft r·eport r·ecommends that CSCIS pnmmlgate regulations that would allow the agency
              "to deny or tenninate ED-5 regional center participru1ts at ru1y phase ofthe process when
              idcntif)'ing known connections to national security and/or tfaud risks without compromising any
              ongoing or potential investigation." and to "[m]akc explicit that fraud and national security
              concems can constitute cause for revocation of regional center status tmder 8 CFR ~ 205.2.'' 3 1n
              principle users agrees that explicit authority to tenninate a regional center based upon fraud
              and national security concerns is needed, but USCIS lacks authority to promulgate such
              regulations uttder current law. Statutory change is required, which is why l JSCIS over a year
              ago proactively proposed legislative language to Congress t.o secure these authorities and oU1er.;.
              CSCIS appreciates OIG's support tor this etlort.

              However, USC IS has taken substantial administr-ative measures to ensure ER-5 program security
              to the fullest extent permitted tmder existing law. The drart report roc uses on legal attthorities,
              and docs not address many of the operational steps- some transfonnativc -that USCIS has
              taken in recent years to counter fraud and national security risks in the EB-5 program with the
              limited authority that USC IS already possesses. \Ve are concerned that this omission may leave
              readers with the misimpression that users has done little to leverage the tools it already has.
              when in tact quite the opposite is true:

                       • users has expanded its background vetting to include regional center entities and key
                            executives, for the first time itt the program's history.

               1
                 Soi!e Matter ofCTTAIY471TF:, 2'i 1&N Dec. 169, .176 (AAO 201 0).
              ., USCJS notes, as Joes the Jrart repurt, that the Senate earlier tills year passed kg~slation (S. 744) that woulJ
                  significHntly improve ER-'i Huthorities in line with the recommendations that users offered
              3
                    S C-..F.R § 205.2 0st.1.blishcs proccd11n~s for cx~~rc.i.smg the ~cr0tary' s authority pursuant to s-.,ction 205 of th0
              Immigration and )Jationahty Act (1:\fA) to revoke approval of any petition approved under INA§ 204. Speciftcally,
              ~ C'.F K ~ 205 2(a) states "ralny Service offrcer m1thorized t.o approve a petition under section 21.14 oftli< Ad. may
              revoke the approval of that petit1on .. " CSCJS designates rogronal centers pl~SlJ:mtto the Appropnatroru; Act, as
                  HJ11 ended.   and 11 Dt under section 204 of the TNA.




www.oig.dhs.gov                                                               24                                                              OIG-14-19

                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security



              Oil!cia] Comments to the Drafi Report Recommendations on U.S. Cilizenship and Jmmzgralwn
              Services ' Employment-Based F1.fth Preference (EB-5) Regional Center Program- For Otlicial
              Cse Only (OIG-12-166)
              Page 5


                     • users has required all regional centers to file annual disclosures on their business
                         ac--tivities and m>~lership and management changes, for the first time in the program's
                         histor:v.
                     •   USClS has dramatiL:ally enh;mL:ed collaboration with key government partners, induding
                         ICE, CDP, the fDI, the Securities and Exchange Commission (SEC), the Treasury
                         Department, and the intelligence community, on specific EB-5 cas.:s as well as
                         pr-ogrammatic issues.
                     • users has created a new EB-5 progrmn office at lwadquartcrs with embedded FD:-JS
                         officers, who have the authority to liaise directly with other l .S. govennnent agencies,
                         tor the tlrst time in the program's history.
                     •   Where lJSCIS develops <Xllll:ems in Fll-5 ca.~es , it leverages its regulatory authority to
                         withhold adjudication of those cases until it has ti.llly coordinated its approach with
                         enforcement and intelligence pmincrs. See 8 C.F.R. § 103.2(b)(l8).

                  A titHer stunmary of steps US CIS ha~ taken to ensure ED-5 program integrity is attached as
                  Exhibit A, which is marked For Official Use Only- Law Enforcement Sensitive.

              Finally, we note the drail report's reference to a. specific Ll3-5 c~~e involving national se..:urity
              concems. TI1e OIG's conclusion is premature and inaccurate. TI1e OIG's conclusion that the
              referenced regional center poses a national security threat, m1d that the primary reason the
              regional center has not been terminated is a legal belief held by USC IS, is simply not supported
              by the record. 'l11e mallerremains under law enforcement investigation and USClS continues to
              closely coordinate with the lead law enforcement agency, m1d will coordinate any adjudicative
              action, as appropriate. TI1e OIG bases its case assessment on input tfom "one CSCIS otlicial''
              despite PSCIS's detailed comments to the OIG delineating where OIG's case recor·d wa~
              lacking. ' llte OICJ has not smtght to discuss the matter wilh key LSCIS national security oiTicers
              responsible for handling the matter, despite USC IS's notice to the OIG that these ofilcials have
              relevant information. Further. to the best of US CIS's knowledge, the OIG did not seck input
              from the law enforcement agency involved in investigating the matte.-. Our detailed summary of
              C(mcems on this issue is heing tnmsmitted llltder separate cover given the law enf'or<.:emenl
              sensitivities.


              Tht> J.l:ll-5 Progr:tm :tntl thl' LSCIS .Vlission
              We note the draft rep01t's conclusion that the EB-5 program "ell.1cnds beyond CSCIS's mission
              to prov ide immigration and citizenship services," at1d its observation that other agencies hav e
              mission statemenl~ closely aligned will1 ll1e program's goals. LSCIS (and its predecessor, the
              Immigration and Naturalization Service (Il\S) 1mdcr the Department of Justice,) has been
              charged by Congress with administering the EB-5 program since the program's inception in
              1990. l:SCIS operates and will cm1tinue to operate the program as it is required to do by law
              unless Congress changes this mandate.




www.oig.dhs.gov                                                   25                                                   OIG-14-19

                                        OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security



              Oil!cia] Comments to the Drafi Report Recommendations on U.S. Cilizenship and Jmmzgralwn
              Services' Employment-Based F1.fth Preference (EB-5) Regional Center Program- For Otlicial
              Cse Only (OIG-12-166)
              Page 6

                  We agree with the draft repmt that USCIS can benefit from collaboration with other CS.
              government agencies in administering the ED-5 program. A tew years ago, the CSCIS Director
              proposed to the Department of Commerce that the agencies explore possibilities for Commerce
              to take on a significant role in EB-5 adjudications. Since that time, US CIS and Commerce have
              partnered successfttlly on a munber of discrete issues in the EU-5 program, and we continue to
              disclL~s the optimal level of collaboration in the program.
              In support of its goal to reduce fraud, CSCIS has also forged a highly successful partnership with
              the SEC in recent years. The agencies have cm1ducted a joint public engagernent,jointly issued
                  an Fll-5 investor alert to the investing public, and collaborated on investigation and enl(lrcement
                  action in particular EU-5 cases. USClS has also collaborated with SLC staff in the development
                  ofteclmical assistance to Congress that would enhance securities law compliance and investor
              protection within the ER-5 prog.-am.

              W c believe the OIG should have assessed the wide range of initiatives on which we arc currently
              engaged with the Department of Commerce and the SEC. We appreciate the OIG's general
              recommendatim1 that PSCTS execute memoranda of understanding with these agencies, but a
              memorandum is simply a procedural vehicle and not a substantive strategy for how to enhance
              collaboration. We welcome specific suggcstioll.S, as we arc focused on this goal.

                  We ultin1ately defer to Congress as to wheti1er the program is properly housed aJ LSCIS or
              another agency. \Ve have tal,en tremendous strides to develop in-house expertise and to ensure
              that the program has all necessary resources to properly and effectively handle EB-5 cases.
              Historically, CSCIS had 110 significant economic or corporate tra11sadional expertise 011 hand to
              manage this complex casework. Culminating in U1e creal ion and ongoing sta111ng of the new
                                                                    4
              progrmn otlice, we now have 22 economists on stntr as well as business analysts and corporate
              artomeys to review the business and economic questions that EB-5 cases typically present. We
              continue to build up these resources i11 the new ER-5 pmgram office and are committed to
              providing our team wilh all the resources and expertise they need lo administer lhe program.


                  Measurement of Overall Progr·am Impact
                  \Ve note the draft report's finding that USClS is not in a position to quantity the impact of the
                  EB-5 program on the U.S. economy. We agree. CSCIS administers a number of business visa
              programs that were designed by Congress to foster economic pmsperity, hut we do not attempt to
              measLtre the broader economic impact of' any of' those programs, inciLtding EH-5. LSCIS"s
              mandate is to adjudicate EB-5 cases according to the eligibility criteria, including the statutory
              job creation requirements. USC IS is not charged with conducting a broader assessment of the
              program's impact, something which has been the subject of both congressional hemings and
              private studies over the years.


              4
                The draft report criticizes CSCIS for not providing its economists with access to needed systems and data. We
              h ave \Vorkc>d dosdy with our economists to ensure they ru-e equipped to hruKJle the workload and we-re stlrprised by
              this Imding. Our economists have received access tu the IMPLA'.' econumelnc phmnmg tool •nd other resources.
              Tfthe om helieves ~dditi0.nal tooh are needed, it would he helpful to specify which ones.




www.oig.dhs.gov                                                         26                                                            OIG-14-19

                                         OFFICE OF INSPECTOR GENERAL
                                                 Department of Homeland Security



              Oil!cia] Comments to the Drafi Report Recommendations on U.S. Cilizenship and Jmmzgralwn
              Services' Employment-Based F1.fth Preference (EB-5) Regional Center Program- For Otlicial
              Cse Only (OIG-12-166)
              Page 7

              CSCIS therefore agrees with the OIG's recommendation to the ex-tent that fmther study of the
              EI3-5 program's impact may be warranted, but we do not believe users, as the administering
              b~ndits agency, is b~st position~d to conduct those studies. W c stand ready to provide any
              appropriate assistance to Congress and to U.S. govemment agencies that specialize in
              measurement of economic impacts in this regard.


              Velification of Job Creation
              '11te draft report observes, correctly, that it is often impossible for US CIS to conclusively verity
              job creation in EB-5 cases. Titis is a direct result of the statutory design of the EB-5 program,
              which pcm1its in1migrant investors to usc economic modeling to predict "indirect" job creation
              that will likely result rrom lhe regional center's economi<: adivily. The legislation creating lhe
              regional center program provides that L SCIS shall penuit immigrant investors to rely upon
              "reasonable methodologies tor determining the number ofjobs created ... including such jobs
              which are estimated to have been created indirectly."~ Ry definition, these indirect jobs cam10t
              each he verified, a.~ they are producL~ or an economic model. l·~conomist~ hroadly accept the use
              oflhe~e model~ (some of which are developed by U1e Department of Commerce), <md Congress
              has mandated that cscrs accept them as evidence. !d. Jvlorcovcr, because the statute pennits
              regional centel' applications (Form T-924) and initial investor petitions (Fol'm T-526) to be filed
              hef(Jre the economic adivity ha-; heetl underlaketl and the jobs have been created, these
              processes n~ccssarily involve estinzatesoflikdy job creation. and not a backward-looking
              counting of jobs already in existence.

              We emphasize that cscrs is rigorous in its review of each case before it, applying economic
              expertise to determine whether each economic model presented to the agency is a reasonable
              approxin1ation of how many jobs arc likely to be created. cscrs conducts independent and
              thorough reviews or the suhmitted economi<: models bel(>re concluding they are rea~onahle in
              their assumptions and predictions. Where the agency previously had no meaningt1tl economic
              <)Xpertise on hand to conduct this work, we have in recent years hired and continu<) to hire
              economists a11d corpol'ate attomeys to ensure the work is done properly and consistent with
              widely accepted standaJ'ds in the fidd. \.ISCIS regLtlal'ly denies cases rm lailul'e to meelthejoh
              creation requirements. ln FY 2012, for example, USClS denied 63 regional center applications
              for failure to satisfy the job creation or other eligibility requirements and approved 35 regional
              center applications.

              CSCrS agrees with the draft report's finding that users would bcndit hom additional
              authorities to oversee job creation in cntctpriscs associated with a regional center. USC IS has
              provided legislative proposals to Congress to expand those authorities.


              ' ScctJOn 610 of th<' Dq:>.'Utmonts of Commorco, Jtistlcc, and State, the JudJcJary, and Rotated Agcnc1os
              ,\ppropriations Act, 1993, Pub. L :-Jo. 102-395, 106 Stat. 1828 (1992), as amended by section 116 of Pub. L. No.
              liJ5-ll D, Ill Stat 244•.1 (l'i'!'l); ""ction 402 of Pub L No lll(>-3%, 114 Stat. 1(>3 7 (2000), section 11037 of Pub
              L. 1\o. I 07-273, 116 Slat. 1758 (20:)2); sect10n 4 of Pub. L. Nu I 08-156, 117 Slat. 1944 (2003): and seclton 1 uf
              Puh. !.. \·o. I 12-176, 126 Stat   l.l2.~   (2012).




www.oig.dhs.gov                                                        27                                                             OIG-14-19

                                          OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security



              Oil!cia] Comments to the Drafi Report Recommendations on U.S. Cilizenship and Jmmzgralwn
              Services' Employment-Based F1_fth Preference (EB-5) Regional Center Program- For Otlicial
              Cse Only (OIG-12-166)
                  PageS

              The draft r·eport r·eferences instarrces in which CSCIS has granted ER-5 benefits to investors
              whose capital was used to pay off construction loans or other bridge financing t:rom projects that
              had already begun. Wc note that EB-5!rogram rules do allow EB-5 capital to replace bridge
              fmancing under certain circumstances. For example. a bank may approve a temporary
              construdion loan on the condition thallhe loaned funds will be replaced once a developer is able
              to secure EI3-5 timding. TI1ese types oftinancing arrangements pemtit shovel-ready projects to
              begin (and jobs to be created) right away. Of course, users has denied and will continue to
              deny ca<;es where a project is alr·eady completed and circumstarrces do not wan·ant attribution of
              jobs to a proposed late-stage investment.


              Progr·am Integrity
              '11troughout the draft report, the OIU has included references to casework that may leave the
              reader with the impression that these cases were adjudicated in error, even though the draft report
                  states, with respect to at lea<;t a number of these cases, that there is evidence to support the
                  adj udicalive decisions reached. ;\sa result ol'the ()[(f's willingness to provid~ a list ol'the
                  actual o.:ase~ reH:reno.:ed, USC IS ha~ been able to look. inlo each of these ca~es further to
                  detennine whether a case had been adjudicated properly. A total of twenty-two (22) regional
                  center applications were identified by the OKr. CSCIS ha~ detennined that in each of the
                  applio.:alions o.:ited in Lhe reporl in whidr a lirral deo.:ision has been made, that deo.;ision         wa.~   irr
                  accordance with the law, regulations, and policy. users thanks the OrG tor the opportunity to
                  clarify this issue.

              Inasmuch as the ca~e review fomtd that each case cited by the OIG had been decided properly,
              cscrs must conclude that the orG's concern is not that cases arc being adjudicated improperly,
              but rather the OIG docs not concur with the statute, regulations or policy, as written. In the
                  section below, LSCIS will directly address ea(;h          ar~a ol'conc~m      Lo provide clarirication orthe
              relevant law, regulation or policy.

                  A,      Re::ional CenteJ' Accountability
                  We disagree with the draft report's finding that users does not require regional centers to meet
                  all regulatory requirements, and in particular the requirement on which the draft report focuses:

              6
                See ED-5 Policy MomordndLun Cv!ay 30, 2013) at 15-16 ("Since tt is tho commercial cnterpmo that creates the
              johs, the developer m the principn1 of the nevt' commercial enterprise, either directly or through a. ~epa.mte joh-
              croatmg entity. m"y utiltze mtenm, tempomry or bmlge financing- m the form ui etthor debt or equity- pnor to
              receipt ofF.R-5 capital. Tfthe project commences hased on the interim or bridge financing prior to the receipt of the
              RR-5 cflpiml m'd ;rul"equently replAces it wit], FR-5 capital, the new commercial emerpri'e may 'till receive credit
              for the JOb creation LLJJ.Llcr the rcgulalivn>. Generally, the replacement of bndgc iinancing with EB-5 investor ""pital
              should hnve 11een contemplated r1rim !.t..l acqulrlng the original non·ER-5 financing_ HC'J\\'ever, even if the F.R-5
              flllancing was not cont~mplatcd prior to acqujrjng the temporary fm..wcmg.. as long as th.--; fin..'lliC.ing to be r0placcd
              was contemplated as short-term tempomry financing which would be subsequently replaced, the infusion of ED-5
              financing could still result in the creatjon of, and credit for, tk'W _jobs_ For example, the> non HB-5 financing
              ongin"lly contemplated lu replace the temporary tinancmg may nu longer be av"tlablc tu the commerctal enterprise
              as fl result of changes in availability oftmd1ti0.nal financing.")




www.oig.dhs.gov                                                          28                                                                 OIG-14-19

                                          OFFICE OF INSPECTOR GENERAL
                                                 Department of Homeland Security



              Oil!cia] Comments to the Drafi Report Recommendations on U.S. Cilizenship and Jmmzgralwn
              Services' Employment-Based F1.fth Preference (EB-5) Regional Center Program- For Otlicial
              Cse Only (OIG-12-166)
              Page 9

              that an application for a ne\V r·egional center must pm'>ide "in verifiable detail how jobs will he
              created indirectly." 8 C.F.R. ~ 204.6(mX3)(ii). The draft report suggests that US CIS should
              interpr~t its regulation to require that all n~w regional center applications includ~ a fully
              developed business plan. but that view is contrary to the statute, which permits creation of a
              regional center b;t~ed on "general proposals'' 'l11e regioruil center legislation sfl{t.es !hat the
              progrmn "shall involve a regional center in the Cnited States, designated by the Secretary of
              Homeland Security on the basis of a general proposal, tor the promotion of economic grow1h,
              including increa~ed export sales, improved regional productivity, job creation, or increa.~ed
              domestic capihtl im:estmenl" and that "l tjhe establishment or a regi(mal center may be based on
                                     7
              general predictions. " ln light of the controlling statute, US CIS has interpreted the regulation's
              reference to "verifiable detail" as requiring substantial evidence of how jobs will likely be
              cr·eated, but not necessarily a ii.tlly developed business plan, which is not a r·equir·ement
              authorized by the statLtte.

              It is i.mpottant to note that no alien is properly admitted as an immigrant to the C.S. under the
              ER-5 program if he or she cannot show a fully developed husiness plan and finn commitment of
              the required investment amomtt. At the stage at which an individual investor seeks approval to
              invest in an already-approved regional center, a fully developed business plan must be presented.
              Afatter ofHo, 22 !&1\ Dec. 206, 213 (Assoc. Comm'r 1998). The statute, however, docs clearly
              permit regional<.:ent.ers lobe approved at the oulsel, before any individual investors have been
              approved, on a lesser showing. Again, if Congress modified the statute to require a more
              detailed showing by the regional center, CSCIS would adhere to that new standard.

              In another example cited in the dra1l report, !he OIG suggests !hal USCIS improperly urged an
              applicant to omit intonnation from an application in contravention of the regulations. TI1e OIG
              is inconcct; in the case discussed, users followed ordinary evidentiary procedures in a manner
              consistent with law. users adjudicates ever·y regional center application to ensure thatthe
              docLtments submitted establish eligibility l'or the designation as a regional center as ol'the date of
              tiling. In addition to establishing eligibility tor designation as a regional center, Fonn I-924
              applications arc sometimes accompanied by a Form I-526 Exemplar along with draft documents
              describing the proposed investment oppmnmity. The I-526 Exemplar is an avenue available to
              the regional center applicant to obtain a determination from users. in advmtce of the tiling of
              actual investor petitions, that the draft documents do not contain provisions that violate program
              requirements. Ifthe draft investment documents contain impennissiblc provisions. USCIS
              provides the applicant t.he opporhmit y to ;unend !he dra.fi in vestment. dm:ument~ through a
              Request for Evidence (RfE). This process is pennissible tmder both the statutes and the
              regulations. Moreover, the exemplar process is an intportant tool to ensure predictability and
              eiTiciem:y in the processing ol'investorpetitions under the regional center proje..:t. We therel'ore
              believe the OIG 's criticism of this established and well-designed process is Lmwarrant.ed.

              7
                  ScctJOn 610 of th<' Dq:>.'lrtmonts of Commorco, Jtistlcc, and State, the JudJcJary, and Rotated Agcnc1os
              ,\ppropriatiollS Act, 1993, Pub. L :-Jo. 102-395, 106 Stat. 1828 (1992), as amended by section 116 of Pub. L. No.
              liJ5-ll D, Ill Stat 244•.1 (1 1i'!7); ""ction 402 of Pub L No lll(>-3%, 114 Stat. 1(>3 7 (2000), section llll37 of Ptrb
              L. 1\o. 107-273, 116 Slat. 1758 (20:)2); sect10n 4 of Pub. L. Nu 108-156, 117 Slat. 1944 (2003): and soclton 1 uf
              Puh. T.. \-o. I 12-176, 126 Stat l.l2.~ (2012).




www.oig.dhs.gov                                                          29                                                             OIG-14-19

                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security



              Oil!cia] Comments to the Drafi Report Recommendations on U.S. Cilizenship and Jmmzgralwn
              Services ' Employment-Based F1_fth Preference (EB-5) Regional Center Program- For Otlicial
              Cse Only (OIG-12-166)
              Page 10


              The OTG also concludes that USCTS's regulations and policies pertaining to the designation of
              Targeted Employment Areas (TEA) are tmclear. Specifically, the OIG appears to take issue with
              an adjudicator's ability to challenge the designated boundaries of a TEA. CSCrS believes the
              recent policy memorandum removes any ambiguity. As noted in the May 30, 2013 EB- 5 Policy
              l'vlemorandtun, "US CiS defers to stale detenninations ofthe appropriate boundaries of a
              geographic or political subdivision that constitutes the targeted employment area. However, tor
              all TEA designations, USCrS must still ensure compliance with the statutory requirement that the
              proposed area designated by the state in fact ha-; arr unemployment r-ate of at lea-;t 1 50 per·cent of
              the national average rate.·· This policy pronouncement adheres lo lhe legal framework !'or TF.:\
              designation.


                  R.    lJSCJS Re~latiom and Policy
                  We agree with the OrG's concern that users has historically applied laws and policies
              inconsistently in the ER-5 pr·ogram. This ha-; been arr ongoing source of criticism for the agency,
              and one lhat has been warranted. The program's eligibility ~riteria, involving complex issues or
              job creation proje<.:Lion, economic modeling, business plan evaluation, <md review of
              transactional documents, complicate eff01ts to devise simple rules that arc readily applied to
              actual ca~es. The problem was long exacerbated by thr·ee key deficiencies that users ha~ now
              made sigrril1canl headway in resolving: (1) lJSCIS had no fomral policies addressing many of
              the critical issues that frequently arise in EB-5 cases; (2) users did not inject meaningful
              economic or corporate legal expcttise into the program: and, (3) users did not require regional
              center applicants to suhmit standardized and ba~ic information to gain approval, or to update
              csers regularly· on their status once approved.

              On ~lay 30, 2013, cscrs issued a 27-pagc EB-5 policy memorandum that. for the first time in
              the program's history, addresses comprehensively the range or eligibility issues in a single
              doctmtent. '11te issuance of the new policy memorandmn was a seminal event for the program,
              and though it was finalized only toward the end of the orG' s audit period, we are confident that
              it will result in more consistent decision-making that faithfully applies the statutory and
              regulatory requirements. \Ve regret that the OICI ha~ not addressed the policy memorandum.

              Fmthennorc, users has made great strides in resourci.ng the EB-5 program with the types of
              expertise necessary to conduct these complex adjudications. In 2009, USeTS had just nine
              employees a~signed to the program, none or whom were economists or corporate attorney~.
              With the creation and ongoing stafiing of the new program otlice, there arc currently more than
              80 employees assigned to the EB-5 program. including economists and corporate attomcys
              whose expertise will pay enonnous dividends in ternrs of improving the agency's consistency
              and adherence to law in its adjudications. The pro grant chief is also now designated. tor the first
              time in program history, as an SES-Icvd position.

              LSCIS has also sought to bring order and consistency to the regional center approval illld
              monitoring process, which until recently was extraordinarily under-developed and ad hoc.
              Historically, and as recently as 2009, a regional center applicant could apply to csers through




www.oig.dhs.gov                                                30                                                       OIG-14-19

                                          OFFICE OF INSPECTOR GENERAL
                                                Department of Homeland Security



              Oil!cia] Comments to the Drafi Report Recommendations on U.S. Cilizenship and Jmmzgralwn
              Services' Employment-Based F1_fth Preference (EB-5) Regional Center Program- For Otlicial
              Cse Only (OIG-12-166)
              Page 11

              an infomral letter-writing process. There was no regular· security vetting and no standardized
              collection of basic information. users in 2010 introduced a new fonn, fonn r-924, that collects
              this intonnation and that all new regional center applicants (or regional centers tiling to amend
              their designation) arc required to usc. CSCIS also began. for the first time, charging a fcc for
              regional center applications. Previously, regional center applicants paid no fee at all, me:ming
              that the work lmdertaken to adjudicate cases filed by sophisticated business interests was
              dfcctivdy subsidized by the rest ofCSCrS's customers. That inequity no longer persists.
              :Mor·eover, as of2011, appmved regional center-,.; are required to submit e>.~ensive infonnation to
              LSCIS on an annual basis through 1:omr 1-924.:\, updating the agency orr the status oftlreir
              investment projects and management or ownership changes, and pennitting LSClS to conduct
              heightened oversight and vetting of regional centers on a continuing basis.

                  :\11 of these changes have contrihuted to enhanced consistency and integrity in \.ISCIS's
                  administration of the program.

              J .astly, the dr-aft report implicitly criticizes CSCJS 's policy of defening to prior agency decisions
              involving the same investment project, but we believe the criticism is misplaced. A..n important
              dement of consistency is that users must not up~nd settled and reasonable business
              expectations by issuing contradictory decisions relating to the same investment projects. It
              dis serves the public, Lmdem1ines progr:un integrity, am! is ftmdament.ally unfair for lJSClS to
              approve a project, have the developers and investors act in reliance on the approval, and tben
              subsequently reverse course by determining that the agency's initial approval was in error. To
              that end, CSCIS has long followed a policy that it will defer to its own prior det:isions unless
              there is evidence of fraud, material change in f:td.s, or legal deilt:iency in the prior decision.
              Some of the sharpest criticism cscrs has historically received from Congress and stakeholders
              relates to perceived failures to follow this deference policy, precisely because of the huge
              reliance U.S. project developers and investors justifiably place on CSCJS 's decisions. Where a
              prior approval wa.~ issued in ohjedive contravention of law, 1!SCIS will not accord deference to
              that approval (and indeed has rdi.Jsed to deter in such cases in recent years). But where an
              adjudicator simply would have decided a close case differently, it lmdermines the program's
              effectiveness, predictability, and consistency for the agency to abmptly rever-,.;e course. 8


              C.     Internal and External htfluence
              LSCIS agrees with the OIO's observation llrat EH-5 cases attract signil1cant interest from a
              range of stakeholders, including members of Congress, state and local otlicials, the busin~ss

              'The draft report cites an ~pplicmion of USGS deference policy in tenm thflt we believe mixh~rncteri ze our
              processes Before 1ISCTS detennines that one of its prior decisions was incnrrect and that the agency should reverse
              a prior <1pprvval, a ''DdCri..:ncc Bmmr or   users   o(Ticiab: indw..ling Cl:onomists, conv~;m::s to ri..:vicv..' the t:asc and
              m~ke R determinntlon a::. to tl1e ~P1.1Topriate way forwArd The Defere11Ce Ronrd process includes ~m op].')t.:1rhmity to
              discuss and clanfy Js""" m tho case w1th the appliCant. ln the case cited at page 13 of the dra!lrq:>ort, the
              Deference Board determined that the agency's initial decision was not in error and should not be disrurbed,
              notwithstanding the contnuyview of a USCJS adjudJC'lltor We believe the process worked m this case, and that the
              010. S CTlli~ism lS liilWarmnlel\; mtkel~ we are concerned lhallhe draft report does not even acknowledge lhallhe
              ultimate decision in this cnse wHs mHde purnu~nr tn thi::. carefu1].1TV...:ess.




www.oig.dhs.gov                                                            31                                                                   OIG-14-19

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security



              Oil!cia] Comments to the Drafi Report Recommendations on U.S. Cilizenship and Jmmzgralwn
              Services ' Employment-Based F1_fth Preference (EB-5) Regional Center Program- For Otlicial
              Cse Only (OIG-12-166)
              Page 12

              community, and the applicants themselves. On average, USCTS r·eceives hundreds (and in recent
              years thousands) ofED-5 case inquiries from members of Congress per year.

              As a threshold matter. \Ye note the draft report's finding that the case files "appeared to contain
              sufficient evidence to support the 11n~l adjudicalim1 decision'' in ea.ch oflhe cases that the OIU
              reviewed involving ell.'temal inquiries. cscrs 's core fimction is, in a manner consistent with
              ensuring national security, to approve cases that arc eligible, and to deny cases that arc not. \\' e
              decide ca.~es based mr the facts and the law and nothing else. CSCTS management officials
              have in many instances received case inquiries lr-om memhers of Congress or applicants and
              declined to take action because they assessed that the agency had reached the right result. In
              other instances. C SCIS officials have become more involved where they believe the agency had
              eTTed. That is as it should be.

              \V c agree \vith the draft report that it is important to have processes in place to manage external
              inquiries about EB-5 cases, to pcnnit appropriate responsiveness to those inquiries, and to avoid
              perceptions that anything other· than the facts and the law driv es agency decisimrs. ;\t the same
              time, we must be accountable and responsive to legitimate criticism. In the ED-5 program in
              particular, our agency has historically struggled with issuing timely decisions that arc consistent
              with the law given the enonnously complex economic and legal issues that these cases can raise.
              If our agency has decided a. case incorred.ly, in U1e EU-5 program or any other visa progrmn, we
              cannot allow that error to go uncorrected when it is brougl1t to our attention. Senior agency
              managers must be empowered to supervise and to correct course when they believe difficult
              issues are not heing handled coTTeclly in cases. Thal is the responsibility or the chain or
              cmnmand.

              We would welcome suggestions from the OIG for processes that Users could implement to
              accommodate all of these legitimate concems. \lie would particular-ly welcome suggestions from
              the 01(1 as to protocols it would recommend l(rr documenting the agency's response Lo Lhe
              thousands of inquiries received every year regarding EB-5 cases. It is important that the public,
              Congress. and USCIS staff all have confidence in the integrity of the EB-5 process and our
              adher·ence to the la\'li. \Ve ar·e committed to taking any steps that can help accomplish this.

              Conclusion and Recommendations
              We concur with three or the rour 010 recommendations, allhmtgh as noted a/rove we have
              refined some of the action items to comport with USCIS's authorities and structure. We
              respectfully request that the recommendations be amended to reflect these refinements:

                  1. users will update regulations to provide greater clarity regarding the requirements tor
                      establishing eligibility under the program, in particular by more clearly delineating the
                      evidentiary requirements applicable to stand-alone EB-5 petitions versus Regional
                      Center-based applications and petitions. A revised rule will be drafted for interagency
                      clearance within nine months of this report.




www.oig.dhs.gov                                                32                                                     OIG-14-19

                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security



              Oil!cia] Comments to the Drafi Report Recommendations on U.S. Cilizenship and Jmmzgralwn
              Services ' Employment-Based F1_fth Preference (EB-5) Regional Center Program- For Otlicial
              Cse Only (OIG-12-166)
              Page B

                  2.   users will develop and implement an interagency collaboration plan outlinirrg liaison
                       and collaboration roles and responsibilities among key federal partners, to include the
                       Department of Commerce and the Securities and Exchange Commission. within six
                       months of this rcpott.

                  3. USCIS's mandate is to adjudicate ED-5 cases according to the eligibility criteria,
                     including the statutory job creation requirements. US CIS is not charged with conducting
                     a broader assessment of the pmgram's impact. And while we agree that an assessment
                     may he hend'i(;iaL we do not believe lJSCIS, a.~ the administering henel'its agen<:y, is best
                     positioned to conduct that study. LSCIS therefore disagrees with the OlU's
                     recommendation that such a study be undctiaken by US CIS.

                  4. \.ISCIS will establish within six months quality assuran<:e steps to promote program
                     integrity and ensure regulatory compliance.

              We appreciate the OIG's review of the legacy F.R-5 progr·am and we cmrcur in the OIG's
              assessment that improvements to the legacy program will enhance CSCIS's ability to ensure the
              program is administered dlicicntly and consistently, with due focus on preventing fraud and
              threats to national security. Tite OIG's assessment echoes concems we developed independently
              ~md which spurred us t.o transfonn the wa.y the EU-5 program is administered. Some of those
              steps have come online over the past several years, but other critical and transformative changes
              have become a reality only in the months since the OIG finished its audit \York. \Vc th.:rcfore
              renew our invitation for the OIG to t:ondnct andit work on the rrew F.R-5 program oiTi<:e that we
              latm<:hed in May orthis year, lhe new EU-5 poli<:y memorandtml that we published in 'lhy of
              this year, and the many anti-fraud and nntional security mea~ures we have recently implemented.
              We and the public would benefit from the OIG's independent analysis of these measures, which
              ar·e not cuTTently reflected in the dmft r·eport.




www.oig.dhs.gov                                               33                                                     OIG-14-19

                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                           �
   Appendix�C��
   Major�Contributors�to�This�Report�
   Patrick O’Malley, Director
   Cheryl Jones, Audit Manager
   Keith Nackerud, Analyst-in-Charge
   Jeanette Hyatt, Auditor
   Rebecca Mogg, Program Analyst
   Audrey Van, Auditor
   Katrina Bynes, Auditor
   Marisa Coccaro, Program Analyst
   Kevin Dolloson, Communications Analyst
   Patricia Benson, Referencer




www.oig.dhs.gov                             34                   OIG-14-19

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security
                              �
   Appendix�D�
   Report�Distribution��
                      �
   Department�of�Homeland�Security����

   Acting Secretary
   Deputy Secretary
   Chief of Staff �
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   USCIS Audit Liaison
   Acting Chief Privacy Officer

   Office�of�Management�and�Budget���
   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress
   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  35                        OIG-14-19

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
